HHS/OIG, Audit -"Cedar Lane Health and Rehabilitation Center Nursing Facility Costs Reported and Used in the Connecticut Medicaid Rate Setting Process For the Cost Year Ending September 30, 2002,"(A-01-04-00002)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Cedar Lane Health and Rehabilitation Center Nursing Facility Costs Reported and Used in the Connecticut Medicaid Rate
Setting Process For the Cost Year Ending September 30, 2002," (A-01-04-00002)
February 13, 2004
Complete
Text of Report is available in PDF format (134 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
We found the reported costs to be in compliance with applicable Federal and State regulations.  Accordingly, we have
no recommendations.